HHS/OIG, Audit - " Review of Inpatient Medicare Crossover Bad Debts
Claimed at Three Hospitals in California" (A-09-02-00092)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Inpatient Medicare Crossover Bad Debts Claimed at Three Hospitals
in California," (A-09-02-00092)
January 23, 2003
Complete
Text of Report is available in PDF format (1.61 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective
of this review was to determine whether bad debts claimed on federal fiscal
year 1999 Medicare cost reports at California hospitals, for which Mutual of
Omaha was the fiscal intermediary, were for bad debts previously paid as part
of a settlement agreement between the Centers for Medicare and Medicaid Services
and the California Department of Health Services.  Of the three hospitals
reviewed, we found that all three hospitals claimed bad debts totaling $36,814
on their Medicare cost reports that was previously paid as part of the settlement
agreement.